   Oral Statement – Committee on Oversight and Government
                           Reform
                       July 18, 2013


      Chairman Issa, Ranking Member Cummings, and Members

of the Committee, thank you for the opportunity to address

specific issues that have been raised related to our report

published May 14th, 2013 on inappropriate criteria used by the

Internal Revenue Service to identify tax-exempt applications for

review.



      Our report included three key findings: first, that the IRS

used inappropriate criteria that identified for review organizations

applying for tax-exempt status based upon their names or policy

positions, rather than on tax exempt law and Treasury

Regulations; second that the cases that the IRS referred for

review as potential political cases experienced delays; and third,

the IRS made unnecessary and burdensome requests for

information.
      On May 10th, 2013, at an American Bar Association

conference held in Washington D.C., Lois Lerner, the Director of

Exempt Organizations for the IRS at that time, stated, quote:

     “Instead of referring to the cases as advocacy cases, they

     actually used case names on this list. They [Determinations

     Unit in Cincinnati, Ohio] used names like ‘Tea Party’ or

     ‘Patriots’ and they selected cases simply because the

     applications had those names in the title. That was wrong,

     that was absolutely incorrect, insensitive, and inappropriate.”

     End of quote.

She also stated that some cases were delayed and unnecessary

questions were asked, confirming the three key findings of our

report. The story line based on Ms. Lerner’s presentation was

that the IRS had apologized for inappropriately targeting

conservative organizations.



      Ms. Lerner made her statements on May 10th, 2013 before

our audit report was completed and issued on May 14th, 2013.
It has been asserted that TIGTA concluded that the IRS

inappropriately targeted conservative organizations; however, that

narrative is based upon Ms. Lerner’s statements, not on TIGTA’s

conclusions. It is imperative for me to emphasize that our audit

report never labeled groups as “conservative” or “liberal.”




       TIGTA reviewed the process used by the IRS from

May 2010 through May 2012 to screen cases for potential political

campaign intervention; in other words, advocating for or against a

candidate running for political office. As of the end of May 2012,

the IRS provided TIGTA a list of 298 organizations that it—the

IRS—had selected for further scrutiny. The reason the report

focuses on the terms quote “Tea Party,” “Patriots”, and “9/12”

unquote is that the IRS provided us a document at the beginning

of our audit that shows these were the terms they used to select

the potential political cases.
      I submit for the record a document that the IRS provided to

my organization on May 17th, 2012 while we were still in the

planning phase of our audit. This document is purported to be the

language used in the Be On the Look Out, otherwise known as

BOLO, listing over time to describe potential political cases. We

focused our audit on the BOLO entries shown in this document

precisely because the IRS represented that these were the

criteria relevant to potential political cases. Furthermore, the IRS

provided us additional names and policy positions that were used

to select cases including “Patriots” and “9/12.”



      The scope of our audit included the process the IRS used

to review applications for tax exemption from groups potentially

involved in political campaign intervention. During the audit, our

understanding was that the other BOLO entries were not used to

select cases for this type of specialized review.

As new information emerges, we are continuing to review whether

that is accurate.
       In interviews, e-mails, and documents we found repeated

discussion of the use of “Tea Party” and other related criteria

described in our report. New documents from July 2010 listing

the term quote “Progressive” unquote but noting that “Progressive

are not considered Tea Parties” were provided to TIGTA last

week, on July 9th, 2013. They were not provided during our audit,

even though similar documents that list quote “Tea Party” unquote

but not “Progressive” were. I am disturbed that these documents

were not provided to our auditors at the outset, and we are

currently reviewing this issue.

       To follow up on the information that other terms like quote

“Progressive and Occupy” unquote, appeared in various sections

of the BOLO list, we conducted additional analyses to provide

you, Members of Congress, with the data that we have, due to the

interest in this issue.

However, we do not have full audit findings on the use of these

other criteria.
      With respect to the 298 cases that the IRS selected for

political review as of the end of May 2012, three have the word

“Progressive” in the organization’s name. Another four used

quote “Progress” Unquote. None of the 298 cases selected by

the IRS as of May 2012 used the name “Occupy.”



      I know you have questions and so do we on the other Be

On the Look Out listings, but from the date of the May 17th, 2012

document until we issued our report one year later, IRS staff at

multiple levels concurred with our analysis citing “Tea Party,”

“Patriot,” and “9/12” and certain policy positions as the criteria the

IRS used to select potential political cases.




Although our audit was focused on the processing of potential

political cases, we were concerned about the appropriateness of

other criteria appearing in BOLO listings. We took prompt action

after our report was issued to follow up on those concerns and
communicated them to Congress, consistent with legal

restrictions on the release of confidential taxpayer information.



      The names of the 298 groups and the majority of the

information on the BOLO listings are return information as defined

under Title 26 U.S.C. Section 6103 and thus TIGTA is prohibited

by law from disclosing this information to members of this

Committee and to the public.



      However, we did provide this information to the Acting

Commissioner, Daniel Werfel, on May 28th, 2013 and

recommended that he review whether BOLO listings were still in

use and whether they were appropriate.

He has announced that he has taken action on this suggestion

and restricted the use of Be On the Look Out listings.



      We also provided this information and briefed staff from the

committees authorized by statute to receive tax information – the
House Committee on Ways and Means and the Senate

Committee on Finance – in early June 2013. Our Office of Audit

also referred the IRS’s use of other BOLO listings to TIGTA’s

Office of Investigations for further review.



      The letter from Ranking Member Cummings to the

Chairman dated July 12th, 2013 states that I failed to disclose to

Congress that we found no evidence of political motivation. With

all due respect Mr. Chairman, I believe the record shows

otherwise.




      When I testified before this Committee on May 22nd, 2013,

Representative Cartwright inquired as to whether TIGTA saw any

evidence that IRS employees were politically motivated in their

creation or use of the inappropriate screening criteria. I stated

unequivocally, quote “[W]e received no evidence during the

course of our audit to that effect” Unquote.
       In addition, when I testified before the House Committee on

Ways and Means on May 17th, 2013, Ranking Member Levin

inquired, “Did [TIGTA] find any evidence of political motivation in

the selection of the tax exemption applications?” I responded,

quote “We did not, sir” unquote.

       The letter from Ranking Member Cummings also states

that I may have improperly prevented disclosure of relevant

information. That is not correct. Career TIGTA and IRS attorneys

independently determined that certain taxpayer information

should be redacted. Following that decision, the IRS told us that

it had changed its mind about one BOLO entry.

This was an interpretation that we requested additional

information about, and our lawyers continue to have a dialogue

regarding it.

       It is important that I be clear on this point: none of this

information has been withheld from Congress. TIGTA provided it

in an unredacted form to the tax committees entitled to receive

this information weeks ago.
      Since the issuance of our report on May 14th, 2013,

Congress, the Department of Justice, the IRS, and TIGTA have

been reviewing the issues surrounding the IRS’s processing of

tax-exempt applications. As such, we understand that additional

questions may be raised and additional issues may need to be

reviewed.



      Permit me to conclude by saying that when Ms. Lerner

revealed information on our unissued report on May 10th, 2013,

her statements confirmed the findings in our report.



In fact, as previously noted, we provided IRS officials with several

opportunities to comment on our findings and they consistently

agreed that quote “Tea Party” unquote and related criteria

described in our report were the criteria that the IRS used to

select cases for review of potential political campaign intervention

during the 2010 to 2012 time frame that we reviewed.
    Chairman Issa, Ranking Member Cummings, and Members

of the Committee, this concludes my testimony.
